<html>
<title> - NO WAY HOME, NO WAY TO ESCAPE: THE PLIGHT OF IRAQI REFUGEES AND OUR IRAQI ALLIES</title>
<body><pre>[Joint House and Senate Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                     NO WAY HOME, NO WAY TO ESCAPE: THE
                PLIGHT OF IRAQI REFUGEES AND OUR IRAQI ALLIES

=======================================================================

                                HEARING

                               BEFORE THE

           COMMISSION ON SECURITY AND COOPERATION IN EUROPE:
                        U.S. HELSINKI COMMISSION

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 22, 2010

                               __________

                       Printed for the use of the
            Commission on Security and Cooperation in Europe
            
            
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]            


                   Available via http://www.csce.gov
                   
                   
                               ___________
                               
                     U.S. GOVERNMENT PUBLISHING OFFICE
95-206                   WASHINGTON : 2015                     
            
_______________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6e091e012e0d1b1d1a060b021e400d010340">[email&#160;protected]</a>  
            
            
            
            
            
            
            
            
            
            
            
            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    LEGISLATIVE BRANCH COMMISSIONERS

               
               HOUSE

                                                   SENATE

ALICE HASTNGS, Florida,Co-Chairman     BENJAMIN CARDIN, Maryland,Chairman
EDWARD MARKEY, Massachusetts	       CHRISTOPHER DODD, Connecticut
LOUISE McINTOSH SLAUGHTER, New York    SAM BROWNBACK, Kansas
MIKE McINTYRE, North Carolina          SAXBY CHAMBLISS, Georgia
G.K. BUTTERFIELD, North Carolina       RICHARD BURR, North Carolina
JOSEPH PITTS, Pennsylvania             ROGER WICKER, Mississippi
ROBERT ADERHOLT, Alabama               JEANNE SHAHEEN, New Hampshire
DARRELL ISSA, California               SHELDON WHITEHOUSE, Rhode Island
                                       TOM UDALL, New Mexico
                                    
                                   
                     EXECUTIVE BRANCH COMMISSIONERS

                  MICHAEL POSNER, Department of State
               ALEXANDER VERSHBOW, Department of Defense
  NO WAY HOME, NO WAY TO ESCAPE: THE PLIGHT OF IRAQI REFUGEES AND OUR 
                              IRAQI ALLIES

                              ----------                              

                             July 22, 2010
                                
                                MEMBERS

                                                                   Page
Hon. Benjamin Cardin, Chairman, Commission on Security and 
  Cooperation in Europe..........................................    01
Hon. Alcee Hastings, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................    02
Hon. Jim McDermott, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................    05
Hon. Chris Smith, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................    07

                               WITNESSES

Eric P. Schwartz, Assistant Secretary, Population, Refugees, and 
  Migration, U.S. Department of State............................    05
L. Craig Johnstone, President Ad Interim, Refugees International.    11
Kirk Johnson, Founder and Executive Director, The List Project to 
  Resettle Iraqi Allies..........................................    15
Michael A. Newton, Professor of the Practice of Law, Vanderbilt 
  University Law School..........................................    18

               NO WAY HOME, NO WAY TO ESCAPE: THE PLIGHT
                 OF IRAQI REFUGEES AND OUR IRAQI ALLIES

                              ----------                              


                             July 22, 2010

  Commission on Security and Cooperation in Europe,
                                                    Washington, DC.

    The hearing was held from 2:30 to 4:00 p.m. EST, 385 
Russell Senate Office Building, Washington, DC, Senator 
Benjamin Cardin (D-MD), Chairman, Commission on Security and 
Cooperation in Europe, presiding.
    Commissioners present: Senator Ben Cardin, Chairman, 
Commission on Security and Cooperation in Europe; Hon. Alcee 
Hastings, Commissioner, Commission on Security and Cooperation 
in Europe; Hon. Chris Smith, Commissioner, Commission on 
Security and Cooperation in Europe; and Hon. Jim McDermott, 
Commissioner, Commission on Security and Cooperation in 
Europe;.
    Witnesses present: Eric P. Schwartz, Assistant Secretary 
Population, Refugees, and Migration, U.S. Department of State; 
L. Craig Johnstone, President Ad Interim, Refugees 
International; Kirk Johnson, Founder and Executive Director, 
The List Project to Resettle Iraqi Allies; and Michael A. 
Newton, Professor of the Practice of Law, Vanderbilt University 
Law School.

HON. BENJAMIN CARDIN, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Cardin. Well, good afternoon everyone and welcome to 
the Helsinki Commission on the plight of the Iraqi refugees and 
our Iraqi allies. The hearing titled, ``No Way Home, No Way to 
Escape'' describes the situation of hundreds of thousands of 
Iraqi refugees still languishing in neighboring countries, 
particularly Jordan and Syria more than seven years after the 
beginning of the war.
    Our Iraqi allies--those who have risked their lives to work 
for our government in Iraq, including alongside our military as 
interpreters--face uncertain and threatening futures as forces 
are redeployed. At a time when our country's attention has 
turned to the conflict in Afghanistan, we must not forget 
Iraqis who continue to suffer as refugees and those Iraqis who 
are threatened for helping us.
    Time is of the essence. The refugees become more desperate 
by the day, as what resources they had are becoming exhausted. 
They are not permitted to work in their host countries and most 
feel that the current situation in Iraq remains too unstable to 
afford real security.
    The attacks near Baghdad last Sunday that killed 48 people 
and wounded more than 40 others are a grim reminder that 
violence is still a real part of the everyday life in Iraq. 
Since January of this year, more than 1900 Iraqi civilians have 
been killed, 3800 wounded in violent attacks according to the 
Iraq Body Count Project.
    By the end of next month, the United States will have 
withdrawn half of its 100,000 troops in Iraq. Military bases 
will be closed, including those where many of our Iraqi 
employees have been living due to the death threats from 
terrorists who see them as collaborators and traitors. Many 
other U.S.-affiliated Iraqis currently live in hiding in order 
to continue to work in country. All of these Iraqi allies are 
targeted for assassination by organizations like al-Qaida in 
Iraq and will systematically be hunted down as the military 
withdraws.
    The United States has increased funding for humanitarian 
assistance to Iraqi refugees, providing more than $500 million 
since fiscal year '09. The number of Iraqis resettled in the 
United States has also increased dramatically over the past 
several years, greatly assisted by the opening of an office in 
country processing in Baghdad.
    Nevertheless, I understand the average processing time for 
most applications for resettlement is one year. And those 
seeking SIVs are even more frustrated. The SIV legislation 
enacted in 2007 provides for 5,000 visas each fiscal year 
through 2012, which carry over any unused allotment. Yet to 
date only 2145 special immigrant visas have been issued to 
their Iraqi principal applicants. Looking at the length of time 
to take advantage of these programs, it is totally inadequate 
knowing the urgency that Iraqis will have for their safety as 
the United States continues to withdraw its military forces.
    We have a distinguished panel of witnesses here today who 
will address these critical issues. The first panel will be 
Honorable Eric Schwartz, the Assistant Secretary of State for 
Population, Refugees and Migration. Our second panel features 
Ambassador L. Greg Johnstone, interim president of Refugees 
International, Mr. Kirk W. Johnson, founder and executive 
director of the List Project to Resettle Iraqi Allies and 
Michael A. Newton, Esq., professor of the practice of law at 
Vanderbilt University Law School and the former brigade judge 
advocate with the U.S. Army Special Forces.
    With that, let me first turn to my cochairman, Congressman 
Hastings.

 HON. ALCEE HASTINGS, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Hastings. Thank you very much, Mr. Chairman. Senator, 
if you will permit me, you did identify some, a few of our 
visitors and guests. And we're grateful to all of you. But I 
would also ask that we be mindful that Ambassador Mustafa from 
Syria is in the audience with us. I visited Syria and saw a 
significant number of Iraqi refugees in Syria, as I have, in 
Jordan and in Lebanon and Egypt and even in Sweden and 
elsewhere.
    Thank you for convening this very timely hearing. Sadly I 
recall making the same comment about timeliness during the 
commission's April 2008 hearing, Sen. Cardin, on Iraqi 
refugees. Sadder still, as you've indicated, hundreds of 
thousands of Iraqi refugees remain stranded, primarily in 
Jordan and Syria. I might add, there are a significant number 
that are also internally displaced in Iraq.
    Furthermore, there are hundreds of thousands of displaced 
children. What does this mean for the future of Iraq? I'm 
deeply concerned about the many Iraqi children who have been 
forgotten, who are not attending school either in Iraq or in 
host countries in the region. Some of these children have not 
been in school for three or four years. The world needs to pay 
close attention to this. We need to make certain that these 
children are adequately taken care of because extremist groups 
will stop at nothing to take advantage of this vulnerable 
population, which will have long-term ramifications for Iraq, 
the region and the rest of the world.
    At the beginning of the 111th Congress, I introduced House 
Resolution 578, the Iraqi Refugee and Internally Displaced 
Persons Humanitarian Assistance or Resettlement and Security 
Act of 2009. Initially the legislation that I fostered was 
carried on the Senate side by former commissioner, now 
Secretary of State Hillary Clinton. I was very pleased in the 
legislation more recently filed that Sen. Cardin and the late 
Sen. Kennedy sponsored the legislation here in the United 
States Senate. This legislation addresses the crisis and a 
potential security breakdown resulting from the mass influx of 
Iraqi refugees into neighboring countries and the growing 
internally displaced population in Iraq and also facilitates 
the resettlement of Iraqis at risk. Unfortunately, there has 
been a shift in focus in Congress toward Afghanistan and 
Pakistan and further away from Iraq.
    Considering that this is the largest displacement of 
individuals in the Middle East since 1948, it is a crisis that 
today still demands our immediate attention and is one we 
cannot ignore. Our government must, in my opinion, redouble its 
efforts to ensure effective humanitarian assistance for the 
displaced, expedite the resettlement process for those who want 
to come to our country, work with the government of Iraq to 
ensure that it provides for the needs of its displaced 
citizens, and encourage the international community to do its 
share to alleviate this regional crisis.
    I had a very spirited and helpful conversation with 
President Assad in Syria about what Iraq needs to do for Iraq 
refugees. In May, I successfully offered an amendment to the 
National Defense Authorization Act for 2011 that addresses the 
plight of Iraqis who have worked for the United States in Iraq 
and whose lives have been placed in grave danger for their 
service.
    Under the status of forces agreement signed in November of 
2008, there is not one mention of Iraqis who have worked with 
the United States, which I find to be most unsettling. And 
while the December 2011 date for withdrawal of our troops seems 
far away, there is another benchmark of August the 31st, 2010, 
when nearly 50,000 troops will be withdrawn from Iraq, which 
will limit our ability to protect U.S.-affiliated Iraqis at 
risk. These brave Iraqi persons have risked their lives to work 
alongside our troops, alongside our diplomats, alongside our 
aid workers to help build a more stable and democratic Iraq. As 
the chairman has indicated, all U.S.-affiliated Iraqis are 
considered traitors and are marked for assassination by 
terrorist groups in Iraq. Many have made the ultimate sacrifice 
for their work.
    The United States can't turn its back at this critical 
juncture. We must put in place a plan to ensure that those 
Iraqi allies who have helped our country are protected. Turning 
our backs now would be fatal for our Iraqi allies and would set 
a negative precedent for other theaters of war, in particular, 
as I have mentioned, Afghanistan, where we need to win the 
loyal collaboration and hearts and minds of the population.
    This past May marked a turning point in that the number of 
troops in Afghanistan exceeded those in Iraq for the first time 
since 2003. Reports now suggest that Afghans working as 
interpreters for the United States are increasingly facing the 
same lethal risks endured by our Iraqi employees. We will be 
hard-pressed to find more help in Afghanistan if the United 
States is seen as quick to abandon its friends.
    In my visits, along with our tremendous staff that have 
done amazing work in this regard and the list of organizations 
and countless others without mentioning everybody in this room, 
I have come across, as have you, situations that remind of us 
of our immense responsibilities.
    The more poignant one took place in Lebanon when I had the 
opportunity at UNHCR to visit with women particularly who were 
helping other women in Lebanon during this refugee crisis. I 
came across a lady and her son. Her son had been kidnapped in 
Baghdad. Her husband was working in Syria. Time went by. The 
kidnappers wanted a tremendous amount of money. A Christian 
organization helped them to raise some of the money. The father 
got home from Syria three or four days later and when he got 
home, he submitted himself in return for the boy being 
released. The boy was released and the money was continued to 
be sought. Ultimately, the father was beheaded and his head was 
thrown into the family yard. The mother then was thought to 
have caused it because she did, in fact, go to the authorities. 
And so the dead man's family accused her of causing the problem 
and she had to flee Baghdad and wound up first in Egypt and 
then in Lebanon. On that day, I gave that boy a $100 bill. I 
talked about it and it was written about in the Wall Street 
Journal. The only reason I didn't give him a $1000 was that I 
didn't have it. I felt that I was as responsible for his plight 
as anybody else. I just tell that story because of its 
poignancy.
    Thank you for letting me take the time, Senator. I am very 
passionate about this. I have spent a considerable amount of 
time along with our tremendous staff and you and your staff in 
making sure that this issue is addressed appropriately by our 
government. I thank you and I look forward to hearing from the 
distinguished witnesses that you have identified.
    Mr. Cardin. Congressman Hastings, we appreciate not only 
your leadership but your passion on this issue. It is 
desperately needed. Congressman McDermott.

 HON. JIM McDERMOTT, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. McDermott. Thank you, Senator. I didn't come here to 
make a speech, I came to hear people talk about an issue than I 
care about.
    I recently had a case in my office of a young woman who was 
a translator for the embassy and got out, but all her family 
was left in Iraq. I have spent a lot of office time getting 
that family first to Syria and then finally into the United 
States. It has not been an easy road. And when I see those 
kinds of situations, I think about a reporter in Seattle who 
told me many, many years ago--he was a Special Forces officer 
in Korea--that when things changed in Korea, we walked away and 
left a lot of people who helped our soldiers. I'm very 
frightened that what may happen in this process as we leave 
Iraq is that an awful lot of people are going to be left 
vulnerable to an experience that we put them into. We asked 
them to help us, they did and then we paid them back by walking 
away. That's not right and that's why I came to hear what was 
going on.
    Mr. Cardin. Well, we very much appreciate your 
participation. Let me acknowledge that we do have in the 
audience many of our Iraqi allies and we welcome them very much 
to the committee room. And we very much express our 
appreciation.
    With that, Secretary Schwartz, we'd be glad to hear from 
you.

ERIC P. SCHWARTZ, ASSISTANT SECRETARY POPULATION, REFUGEE, AND 
              MIGRATION, U.S. DEPARTMENT OF STATE

    Mr. Schwartz. Chairman Cardin, Cochairman Hastings, Rep. 
McDermott, I'm very pleased to have the opportunity to appear 
before you to discuss our commitment to finding solutions for 
displaced Iraqis. As President Obama has stated, the United 
States has a strategic interest and a moral responsibility to 
sustain assistance and to promote protection for this 
population. The president has also said when he was here in 
this institution that we have an obligation to keep faith with 
those Iraqis who have kept faith with us.
    This issue is among and has been among my most important 
priorities as assistant secretary. I want to affirm to members 
of the commission that while our military may be drawing down, 
our concern for and our commitment to the humanitarian and the 
protection needs of displaced Iraqis will remain robust. We 
will sustain significant levels of overseas humanitarian 
assistance inside and outside of Iraq, which amounted last year 
to almost $400 million. My bureau spent about $300 million, 
nearly a quarter of our worldwide refugee assistance budget. 
Within the region, those monies helped more than 200,000 Iraqi 
refugees who are registered with the U.N. high commissioner for 
refugees and an undetermined number who are not.
    And while the number of individuals fleeing Iraq, 
thankfully, has decreased significantly, the food, the 
education and the health needs of Iraqis in neighboring 
countries has actually increased due to personal assets that 
are being depleted.
    Our funds will also help Iraqis displaced within the 
borders of Iraq, some 1.6 million of whom were displaced by 
sectarian violence following the Samarra mosque bombing in 
early 2006, in addition to the displaced who were there before. 
And while new internal displacements, also thankfully, have 
also diminished, these people remain very vulnerable and need 
food and relief items, they need livelihood programs and they 
need assistance in accessing public benefits that are 
available.
    We are working very closely with the Iraqi government, with 
our international partners to encourage conditions for safe and 
sustainable return and reintegration of both the internally 
displaced and the refugees. But let me hasten to add that 
returns must be voluntary. That being said, they have been 
ongoing. Returns have been ongoing. From 2008 until May of this 
year, there were nearly half a million voluntary returns of 
IDPs and refugees, which the vast majority of returnees being 
internally displaced persons.
    Beyond all of these efforts, we will continue to engage 
directly with international organizations, with NGOs and with 
displaced persons in Iraq and refugee populations and officials 
outside of Iraq to ensure that we are making our best efforts 
to meet the needs of refugees and displaced persons. One of my 
trips as assistant secretary was to Iraq, Jordan and Syria last 
fall. My deputy, Kelly Clements, returned from the region last 
week or a couple of weeks ago. And this remains an issue of the 
highest importance to us.
    We'll continue to press other donors to provide assistance. 
I have met with officials of more than 15 governments to press 
the case, though I have to be honest and say it's an uphill 
battle. I think that it's likely that we will continue to 
provide the lion's share of aid to the displaced in the years 
to come.
    And we will continue to urge Iraqi officials to do more to 
assist the displaced and the refugees. In fact, over the last 
year, the Iraqi government appointed a senior coordinator for 
displacement, they increased the budget for the Ministry of 
Displacement and Migration and they increased their returnee 
grants by about 50 percent. These are all good signs and will 
encourage the new government to do even more.
    Finally and critically, we will sustain and strengthen our 
efforts at U.S. resettlement. We believe that the most 
appropriate, durable solution for the vast majority of Iraqis 
will be return to a safe and a stable Iraq. But we know--we 
know that Iraqis, some Iraqis will never be able to return and 
that third-country settlement will need to remain a viable 
option for many of them.
    Our Iraqi resettlement program is now the largest refugee 
resettlement program in the world. And about one quarter of all 
of the refugees whom resettle in the United States come from 
Iraq. We have improved the efficiency of the in-country refugee 
resettlement program. That is the program that resettles Iraqis 
directly from Iraq, not from neighboring countries. And this 
year we expect to triple the number of refugees who will be 
resettled through this mechanism.
    We have doubled the size of our refugee and internally 
displaced affairs office in Baghdad over the past two years, so 
that it is now the largest U.S. refugee coordination office in 
the world.
    And finally, it's vital that Iraqis are provided sufficient 
support when they get here to enable them to become productive 
members in their new communities. In January of this year and 
with the strong support from within the Congress, I authorized 
a doubling of the one-time per capita grant that we provide to 
refugees to address the challenges they face during their first 
30 to 90 days in the United States.
    This was the largest increase by far in the more than 
three-decade history of our refugee resettlement program. It 
won't eliminate the enormous challenges faced by new arrivals, 
nor will it address the longer-term adjustment needs that are 
addressed by the Department of Health and Human Services, but 
it will help to ensure that incoming arrivals have a roof over 
their heads and have sufficient provisions for their first 
months in the country.
    In a detailed report on Iraqi resettlement that I have 
reviewed very carefully, one of the witnesses in your 
forthcoming panel, Kirk Johnson, notes that our department has 
taken, and I quote, ``laudable steps towards bringing allies 
out of Iraq.'' And I was deeply gratified by that 
characterization. But I also took very careful note of the 
recommendations in that report and in other reports about what 
more we can and should be doing in terms of current and future 
responses. And I assure you that we will review carefully each 
and every one of those recommendations.
    In closing, I want to thank you for your interest, your 
commitment, your actions on behalf of Iraqi displaced and 
refugees and for your support for the activities that assist 
and protect these vulnerable populations. I'd be very happy to 
respond to your questions.
    Mr. Cardin. Secretary, thank you very much for your 
testimony. Before turning to questions let me acknowledge the 
presence of the ranking Republican member, Congressman Chris 
Smith and turn to him if he has any opening comments.

  HON. CHRIS SMITH, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Smith. Thank you very much, chairman. First, I want to 
welcome our very distinguished assistant secretary for PRM, 
Eric Schwartz, who, over many years, I know I and my staff have 
worked very closely with him. I just want to thank him publicly 
for the tremendous work he has done over the course of a 
lifetime. It's been an honor to work with you, Mr. Secretary.
    Last week, I met with Gewargis Sliwa, His Beatitude, the 
Metropolitan of Iraq and Russia of the Assyrian Church of the 
East. He told my staff and I, very calmly, that some 69 
churches have been bombed in recent years, 800 Christians 
killed including clergy. He went on to talk about how there is 
a rising tide of violence perpetrated against people of the 
Christian faith. He also spoke in great length about the 
trafficking situation and that many of those who do flee find 
themselves very quickly put into a trafficking situation when 
they get into Syria. Perhaps during the course of the Q&A, you 
could speak to that.
    I'm always concerned that whether it be in refugee camps, 
whether they be with the borders around them or makeshift 
refugee camps, traffickers are always on the prowl looking for 
individuals to devour and send out to or abuse right in 
country. So I would hope you could speak to that. And again, I 
want to thank you for your leadership. It has been 
extraordinary. This Republican has a great deal of respect for 
you.
    Mr. Schwartz. Thank you.
    Mr. Smith. Chairman.
    Mr. Cardin. Congressman Hastings.
    Mr. Hastings. Thank you very much, Mr. Chairman. Mr. 
Chairman, may I make a most unusual request and ask your 
consideration of same. I know that Secretary Schwartz is 
probably on limited time, but I also know that we're going to 
begin votes on the House side in about 20 minutes. With your 
permission and if Secretary Schwartz would agree that we hear 
the other witnesses so that we have an opportunity to hear 
them, I would forgo any questioning so that I do have an 
opportunity to hear them. I don't know whether that's feasible.
    Mr. Cardin. Let me see if I can move quickly and we'll try 
to move this along. First, let me acknowledge Secretary 
Schwartz. I agree with you, our first priority is to deal with 
the displaced individuals and the refugees to return to Iraq in 
a safe environment. I have been to both Syria and Jordan with 
the Helsinki Commission and we visited the refugees and we know 
the plights.
    I really want to compliment both the Jordanian and the 
Syrian governments. They have done what I think has been 
reasonable. Could they do more? Absolutely. But where the 
leadership is needed is not just with the United States, but 
with the Iraqi government. And if I have one complaint, it is 
that I don't believe this has been a high enough priority of 
the Iraqi government itself in dealing with the refugee issues. 
I would just urge you to continue to urge the government to pay 
more attention to the return of displaced individuals and 
refugees. I think that's a critically important part.
    Secondly, in regards to the visa programs that allow Iraqis 
to come to the United States, I worked very closely with my 
former colleague Sen. Kennedy in developing not only the 
special immigrant visas, but also the payments so to be more 
convenient for those who helped our country to find refuge 
here. I guess my question to you is that there could have been 
as many as 15,000 settled under the SIVs. In reality, I believe 
it's a little over 2100. The question is, why hasn't there been 
more issuance of the special immigrant visas?
    I also know that there was a directive that came out of the 
consulate that restricted the use of the SIVs to direct hires--
contractors and subcontractors--excluding employees of other 
U.S. entities and government-funded organizations. I don't 
recall that being in the legislation and I would welcome your 
thoughts as to why the numbers aren't higher than the 2100.
    Mr. Schwartz. Well, first let me address your second 
question first: the issue of how expansive the SIV authority 
is. The issue you raised has been raised in a couple of the 
reports that we've looked at and the policy you describe in 
terms of how it's restricted has been a policy that's been in 
effect for several years. I think the issue bears examination, 
and I think it merits review.
    The SIV issue will have certainly more than a colorable 
claim in the refugee program. The refugee program 
administratively is just easier to navigate. That may be one of 
the reasons why the SIV program is undersubscribed. There are 
also requirements in the SIV program because the legislation 
essentially grafted Iraq onto an existing U.S. government 
program. There are a series of requirements that have created a 
certain slowness in the process, such as a chief of mission 
letter requirement.
    We have taken a lot of actions to try to expedite this 
process, to make it go faster. But it remains an 
undersubscribed program. I think it is an issue that we need to 
look at and to figure out where there are ways we can make it 
easier and quicker. We may need the help of the Congress on 
this because some of these requirements are legislative. We 
just couldn't get around them without legislative fixes.
    Mr. Cardin. We look forward to working with you on that. We 
know we've done some programs to try to expedite this. We 
particularly appreciate the presence within country, which 
makes life a lot easier on the immigrant issue. Let me just 
remind you that in 1996 we had an airlift of Iraqis in the 
Kurdish community because of the urgent safety issues.
    I am concerned with the redeployment of U.S. troops and the 
closing of military facilities that we could have some urgent 
issues that will not await the niceties of the bureaucratic 
forms and may require some urgent responses. Is that under 
consideration and do you need congressional support in order to 
be able to implement such a plan if it becomes necessary?
    Mr. Schwartz. Well, Sen. Cardin, I think the more 
congressional interest we have on this issue, from my 
perspective, the better.
    We take very seriously concerns expressed by many that 
there will be increased reprisals against Iraqis who have 
worked for us in Iraq. We currently have a range of robust 
resettlement and visa programs that benefit Iraqis, as you 
know. I think we need to bolster them and strengthen them and 
increase contingent capacity in neighboring countries. We need 
to do all of that and think about ways that adapting these 
programs to changes in circumstances to enhance capacity to 
move people who are at imminent risk because we have capacity, 
but it's limited. At the same time, we do need to look at 
options for the kind of contingencies that your question 
addresses.
    Mr. Cardin. Good. There's significant congressional support 
for measures being taken if the circumstances require it. We 
have a strong obligation to protect the Iraqis that are at 
risk. I would just urge you to keep us informed and to have 
those types of plans available.
    Mr. Schwartz. Certainly.
    Mr. Hastings. Senator I'm going to forgo, but I would want 
to submit questions and ask the secretary if he would get back 
to us with those answers.
    Mr. Schwartz. I'd be happy to and I also want to say before 
you go, Congressman, that I deeply appreciate your dedication 
and interest in this issue. I looked at your legislation very 
carefully. I think, again, my general proposition on this is 
the more engagement we have from the Congress, the happier I 
am.
    Mr. Cardin. Congressman Smith.
    Mr. Smith. The U.S. Commission on International Religious 
Freedom released its 2010 report on April 29th and it noted, 
quote, ``Despite the overall drop in violence in the country, 
violence against religious minorities and their religious sites 
continued in '09 and 2010, particularly in the northern 
disputed areas.'' The report further stated that the vast 
majority of displaced religious minorities within Iraq have 
gone to Nineveh, where there has been a pattern of violence 
against religious minorities prior to elections and obviously, 
it's an ongoing problem.
    Could you speak to that issue? I was in Baghdad several 
years ago and met with a group of Christians who had the same 
complaint then as they do now, that the government does not 
provide adequate protection, that many of their people were put 
into flight. They get a knock on the door and they're told, you 
be gone by tomorrow or your house and your life will be 
destroyed. And they pack up and they leave. So while we try to 
deal with, obviously, refugees and IDPs as they cluster or as 
they go across borders, stopping that in the first place seems 
to be the highest priority in terms of mitigating this terrible 
situation.
    Mr. Schwartz. I couldn't agree with you more, Congressman 
Smith. Let me start from the area that I know, which is the 
refugee and displaced perspective, which is, yes, we see that a 
very high percentage of those who are in fear of persecution 
from Iraq do come from communities of religious minorities. And 
that is a great source of concern and these are populations 
which we are seeking to find protections solutions and 
assistance solutions for.
    I think the issue of stopping persecution before it happens 
has got to be and is a subject of discussion and dialogue 
between our government and the government of Iraq. The more we 
press for reconciliation and policies of tolerance and respect 
for democratic principles, the greater over time the provision 
of rights to these communities will be, but it has to be a 
critically important part of our conversation with Iraqi 
authorities. And with your permission, I'd like to get back to 
you with more on that for the record.
    Mr. Smith. If you could. I was struck by Metropolitan Sliwa 
who made the comment that when people visit his house now, 
there is a room that used to be the guestroom that's adjacent 
to the street and he has nobody sleep there because of so many 
bomb attacks. The targeting is, I believe, getting worse. So if 
you could get back, that would be very much helpful.
    The UNHCR issued a statement recently that about a hundred 
people have been forcibly returned from four European 
countries.
    Mr. Schwartz. What it's about is our European friends have 
somewhat different perspectives on this issue than we do. We 
believe that all returns to Iraq at this point should be 
voluntary. That includes--of course, anyone who is deemed to 
fear persecution, under no circumstances should that person be 
returned, but our position is broader than that:
    At this point, despite the encouraging signs that we see in 
Iraq--and as I said before, we've seen the numbers of displaced 
people leaving has diminished and we applaud that and that's 
encouraging. But despite that, we think that all returns to 
Iraq at this point should be voluntary. We have a different 
perspective on this issue than some of our European friends.
    Mr. Smith. And finally, money-wise, how much unmet need is 
there in terms of providing for the IDPs and the refugees?
    Mr. Schwartz. Well, let me get back to you on that for the 
record. But Samantha Power, my counterpart at the National 
Security Council and senior director for multilateral affairs 
and human rights, and I hosted a big meeting with governments 
here in Washington to press the case for providing humanitarian 
assistance. We continue to provide the lion's share of 
responses to UNHCR appeals. And we'll continue to do so. But it 
shouldn't be that way. Other governments need to be doing more. 
Since they're not, UNHCR appeals and other appeals tend to be 
undersubscribed and we're doing everything we can not only to 
do far more than our fair share, but to encourage others to do 
more.
    Thankfully, the Congress has been very generous. We're 
probably the only bureau in the government that the Congress 
for whatever reason decides, we need more money than we ask 
for. The support for the humanitarian role of U.S. foreign 
policy from the Congress has been incredibly important to the 
work of the department on these issues.
    Mr. Smith. As you know, the UNHCR itself always in its 
requests goes for what it thinks it can get rather than what it 
absolutely needs.
    Mr. Schwartz. Well, let me just say something about that 
too because it's relevant to the budget issue generally. That 
has traditionally been true, but our encouragement, UNHCR has 
moved towards needs-based budgeting as opposed to what it 
thinks it can get. As a result, their budget requirement now is 
much larger. It's gone from something like 2 (billion dollars) 
to $3 billion dollars. We applaud that because even if it's not 
fully funded, we think an international humanitarian 
organization has an obligation to say what the requirements 
are. But that has created great stresses for our budget 
because, you know, their budget has increased by a third, but 
it is definitely the way to go.
    Mr. Smith. That's good. Thank you so much.
    Mr. Cardin. Congressman McDermott? Secretary Schwartz, 
thank you very much. Now, there may be some written questions 
and I would appreciate if you would respond to those timely.
    Mr. Schwartz. Thank you, Sen. Cardin. I would be remiss if 
I didn't thank you for your extraordinary efforts on behalf of 
this population.
    Mr. Cardin. Thank you very much. We appreciate your work 
and your dedication. I know it's a tough area.
    Mr. Schwartz. Thank you.
    Mr. Cardin. Thanks for being so concerned. We'll now turn 
to our second panel, which will consist of Ambassador L. Craig 
Johnstone and from the president of Refugees International, Mr. 
Kirk W. Johnson, founder and executive director of the List 
Project to Resettle Iraqi Allies and Michael A. Newton, 
professor of law at Vanderbilt University Law School. Please 
make yourself comfortable.
    Ambassador Johnstone, we'd be glad for you to begin.

      L. CRAIG JOHNSTONE, PRESIDENT AD INTERIM, REFUGEES 
                         INTERNATIONAL

    Mr. Johnstone. Thank you very much. Mr. Chairman, I have 
submitted my written remarks for the record and I just would 
like to make a few personal observations on the issue we have 
before us here today. I am here as a member of the board of 
directors of Refugees International, standing in as the 
president of the organization pending the imminent, I hope, 
replacement of our former president.
    And therefore, I come to you only temporarily in this 
position, but I have not, at all, temporary with respect to the 
issue of refugees as a whole or the issues in Iraq 
individually. I first testified before the U.S. Congress on 
refugee issues 45 years ago, almost to the day, which is both 
shocking to me and maybe even a little bit disturbing.
    I now am here representing Refugees International. I don't 
know how much you know about the organization, but Refugees 
International was set up at the impetus of Lionel Rosenblatt 
after he and I went AWOL from the State Department. We both 
worked in Henry Kissinger's office in 1975 just before the fall 
of Saigon.
    In order to take out the people who had worked for us in 
Vietnam during the time that we had been there--each of us 
having spent some five years in Vietnam--we went to Vietnam 
because the state of planning to take care of the people who 
worked with and around the U.S. government there was 
appalling--absolutely appalling. Very, very little had been 
done on their behalf. In fact, I would characterize the U.S. 
government attitude towards the Vietnamese employees of the 
U.S. government at that time as one of callous disregard. And 
we were shocked by that. We also went because we believed that 
the United States had a residual humanitarian obligation not 
just to the people who worked with us, but to the Vietnamese 
people as a whole as a consequence of our participation in the 
war.
    I will tell you that I remain, to this day, upset by how 
poorly we did in planning for the fall of Saigon. But I will 
also tell you that I am intensely proud of how the American 
people responded to the fall of Saigon once it began to take 
place, welcoming people into their homes across all 50 states, 
the U.S. government mobilized in exceptional ways past, you 
know, all kinds of provisions went into effect that allowed us 
to deal with the problem.
    Because of the lack of planning, we left a lot of people 
behind. But I must say, to this day, I am incredibly proud of 
the magnificent job that our country did in being responsive to 
the Vietnamese crisis once we began to mobilize on it. It was 
marvelous, fantastic and quite frankly, I think it was 
something that would happen in America. And I think we can all 
take great pride in that.
    We face an analogous situation in Iraq. We are leaving the 
country, as you have pointed out. We have a lot of people that 
have been associated with us and maybe even more importantly, 
to some extent, we have millions of people who have been 
displaced by this war--a million-and-a-half internally and at 
least a half-a-million outside of Iraq who have been displaced 
by this war and who are living in absolutely horrible 
circumstances.
    Not all of them, but many, many of them in absolutely 
horrible circumstances. When I visit some of the settlements in 
Iraq, the squatter villages, there's no running water, there is 
no electricity. There is open sewage. People are living under 
cardboard. And we're not talking, here, about people who are 
used to living in that kind of deprivation before.
    We are talking about people who constituted a middle class 
that is not unlike that which we have in the United States 
before. And today, they are living in absolutely terrible 
circumstances. And almost to a person, when I ask the questions 
in these places in Iraq, when I ask the questions of people, do 
you have sanitation? The answer is no. Do you have water? No. 
Do you have sufficient food to eat? The answer is no. Do you 
have any prospects of a job? The answer is no.
    So what can we do to help, I say. It's really a middle 
class that has been tortured down into a subsistence living in 
Iraq. And we're finding the same situation, sometimes less 
difficult, in Syria and Jordan, less difficult because the 
international organizations have more access to the people 
there and therefore can provide a basic modicum of services.
    But even there, it is totally insufficient. Women are being 
forced into prostitution. People are going into begging. The 
difficulties that they are facing are extraordinary. The 
government of Syria, the government of Jordan have done 
absolutely spectacular jobs trying to deal with this enormous 
influx of people. I think you have to give credit where 
credit's due.
    There have been shortcomings in how the government of Iraq 
has handled the refugee issue, though I think they've done 
materially better with respect to the internally displaced 
people within Iraq, it still is hopelessly inadequate. So we 
have this analogous situation. The important message, I think, 
for us today, is as we disengage from this conflict, we cannot 
disengage from our humanitarian obligations. We have a special 
obligation in this case and we need to step up to it.
    We stepped up to it too late in Vietnam in many respects, 
but we did step up to it and we need to be sure that we are 
ready this time and we step into it in a timely way and that we 
leave the situation honorably. And I think it'll go a long way 
toward helping us, you know, come to terms with the situation 
that we have faced in Iraq.
    In practical terms, what does it mean? It means we have to 
ensure that we have adequate funding. The U.N. appeals for the 
refugees and internally displaced in Iraq have come to a little 
over 700 million. The U.S. has an obligation as it has tried to 
do in the past, of meeting at least 50 percent of that appeal. 
It's not currently on track to be able to meet that 50 percent 
this year. But it's coming close and I commend the U.S. for 
everything that it has done, but it could do more and should do 
more to be able to meet the requirements of these refugee 
situations. As Assistant Secretary Schwartz pointed out, the 
rest of the world is not doing its part at all.
    It's a pittance, what some of the other countries are 
contributing and that increases the burden on us. It would be 
easy to say, well, you know, they should do more. But the fact 
is, they're not and this is a situation that is a special 
situation for us. So ensuring that we have adequate funding, I 
think, is one of the things that needs to be done.
    Secondly, we need to get the people who are working on the 
issue, particularly within Iraq, out of the Green Zone. The 
problem in Iraq today--and it's a problem that affects both the 
U.S. side as well as the U.N. side, but in particular, the U.N. 
side--is that the security restrictions on travel within Iraq 
are so stringent, that people are not able to get out to 
actually see for themselves what is taking place and to work 
the issues where the issues actually are. We need to break 
this. It's particularly true of the U.N. organization. That is 
to say, the U.N. has a lot of very capable people in Iraq who 
are trying to get the job done right, but they are restricted 
in terms of how they travel. At Refugees International, we 
travel around Iraq. We visit the same places where the people 
are and we do it without the same kind of security restrictions 
that the U.N. puts on itself or that the U.S. puts on itself.
    Are our people so different? They're not. They're the same 
people, in fact, the same kind of people. They're humanitarian 
workers who want to get the job done and who go out there and 
yes, they do take a certain level of risk in doing it. It comes 
with the territory of humanitarian work in crisis situations.
    The U.N. is not in Iraq and the U.S. is not in Iraq on the 
humanitarian side to keep itself secure. It is in Iraq to 
service a humanitarian need and it needs to pay a lot of 
attention to the issue of security. I don't deny that for a 
moment. But we need to put a little bit of pressure on the U.N. 
and need to look at ourselves at what we can do to improve the 
access that people have to the humanitarian need within Iraq 
itself.
    We need to keep the numbers up as well on the resettlement 
in the United States. I testified before the U.S. Congress, 
back when I was the deputy high commissioner for refugees at 
the United Nations I was asked, do you think the U.S. is going 
to be able to meet its target of 16,000 resettlements? And the 
answer was yes, I was sure that the U.S. would because a 
commitment had been made. It didn't look like it was possible, 
but it was done. And I commend the United States for that. But 
those numbers are still too low and quite frankly, we're now 
approaching the age when we need those numbers to come up in 
order to be able to service what are going to be increased 
demands as the U.S. withdraws its forces from Iraq.
    I think, to give a nod to the two people who will speak 
after me whom I think will address this issue in much greater 
detail; we need to be especially mindful who associated 
themselves with us during the course of the Iraq war. These 
people are at extraordinary risk. We need to take every measure 
that we possibly can to ensure that they can leave Iraq and 
that they can be resettled adequately in the United States.
    I guess in sum, I would say, simply, I've been there; I've 
done it; I've seen it in Vietnam. I know that the American 
people can respond. When Lionel and I got back to the United 
States after our rescue mission to Vietnam, we were first fired 
and then rehired and then received commendations from Secretary 
Kissinger. And having been through that emotional 
rollercoaster, he did say one thing in the course of our 
citation and that was he thought that we had salvaged a small 
measure of our honor in Vietnam. I don't think that was so 
appropriate for us, but I think it was very appropriate for the 
overall effort that U.S. put into place after the Vietnam War 
to resettle Vietnamese refugees in the United States. I would 
say the same thing applies for Iraq in doing the right thing 
with respect to the humanitarian responsibilities in Iraq, we 
will have salvaged our honor in Iraq. Thank you.
    Mr. Cardin. Thank you for your testimony. I appreciate it 
very much. Mr. Johnson.

KIRK JOHNSON, FOUNDER AND EXECUTIVE DIRECTOR, THE LIST PROJECT 
                    TO RESETTLE IRAQI ALLIES

    Mr. Johnson. Chairman Cardin and Hastings, ranking members, 
I thank you for the opportunity to address you today and for 
the attention that you're giving to an issue that despite 
popular perceptions, increases in importance with each passing 
day of withdrawal.
    Let me begin with the obvious. We are leaving Iraq. By the 
end of next month, we will have reduced our military footprint 
to roughly 50,000 troops. Hundreds of bases and outposts 
throughout the country are being dismantled. Our young men and 
women serving there are redeploying. The blast walls are coming 
down, the tanks and Humvees shipping out.
    We are in the thick of what the Pentagon has declared the 
largest movement of troops and materiel since our departure 
from Vietnam. The logistics operations underway are 
staggering--tens of thousands of troops have been reassigned to 
support that effort, which is so advanced that the Pentagon 
apparently has the capacity to track a coffeepot on its long 
journey home.
    Impressive as this might be, it ignores a fundamental 
oversight in our nation's withdrawal strategy. There are no 
serious contingency plans to evacuate the thousands of Iraqis 
who've worked for the U.S. and lived alongside our troops and 
civilian officials as interpreters, engineers and advisors. As 
we shutter our bases, these Iraqis are being cut loose to run 
the gauntlet of a refugee resettlement process which typically 
takes a year or more. This process will not work quickly enough 
when it is needed most.
    Since my return from Iraq, I've been trying to help 
thousands of Iraqis who fled the assassin's bullet. They have 
been tortured, raped, abducted and killed because they worked 
for America. My organization, the List Project, assists these 
imperiled Iraqis in navigating the straits of the winding U.S. 
refugee resettlement bureaucracy.
    Although it is the largest single list in existence of 
U.S.-affiliated Iraqis, at several thousand names, our list is 
only a reflection of a much larger community. It is likely that 
thousands have already been killed as traitors or agents of 
America.
    I have a separate list which documents hundreds of 
assassinated interpreters who worked for just one contractor, a 
small but gruesome glimpse. And while I once thought that the 
dark years of Iraq's 2006-to-2008 civil war were the bleakest 
for these Iraqis who have helped us, I am increasingly 
concerned that the worst days are yet ahead.
    Now, Secretary Schwartz has outlined a number of 
significant steps forward that the State Department has taken 
in the past few years. To be sure, we have gone from a program 
that admitted one or two refugees a month, to one or two 
thousand a month now. Unfortunately, however, the vast majority 
of Iraqis admitted here are not those who have assisted the 
U.S. A recent GAO assessment puts the figure of resettled Iraqi 
allies at less than 10 percent of the whole.
    Why is this? Why, after our work which has mobilized tens 
of thousands of pro-bono hours from the nation's top law firms, 
are only a few hundred out of the 19,000 Iraqis admitted to the 
U.S. last year from my list? I wake up each morning struggling 
to make sense of this.
    I speak today not to dwell on the perceived successes and 
failures of recent history, however, but rather to focus on the 
next 16 months, the final months of the war. This coming period 
has the shuddering potential to overshadow any of the positive 
strides we've made in the past few years, and if we numb 
ourselves to the lessons of history, our withdrawal will be 
unjust, and bloodily so.
    This is not conjecture. I have lost many former colleagues 
to assassination, and the steady grind of murder continues 
apace in today's Iraq, despite the misperceptions that the 
surge has pacified the country. The Islamic State of Iraq, the 
umbrella organization which is composed of numerous insurgent 
and terrorist groups, including al-Qaida in Iraq, just released 
its own plans in a strategic document published out of 
Fallujah.
    Their manual proceeds with chilling simplicity. Quote, 
``Step one, nine bullets for the traitors and one for the 
crusaders. Step two, cleansing and step three, renewed 
targeting.'' They are practical, stating that this cannot be 
accomplished within one or two months, but requires continuous 
effort.
    Those who believe this group's threats have been rendered 
hollow by the surge might reflect upon the hundreds of Iraqis 
that have been slaughtered in the past several weeks by 
bombings and assassinations throughout the country. Upon a 
recent string of attacks that killed another hundred Iraqis, 
the Islamic State of Iraq's minister of war declared that what 
is happening to you nowadays is just a drizzle.
    We know where this road leads. When British forces drew 
down from southern Iraq just two years ago, militias conducted 
a systematic manhunt for their former Iraqi employees. 
Seventeen interpreters were publicly executed in a single 
massacre, their bodies dumped throughout the streets of Basra.
    This predictable churn of violence against those who 
collaborate with an occupying power has been repeated again and 
again through history, coursing through the lands of Iraq, 
Vietnam, Algeria, Europe, all the way back to our own soil, 
when British loyalists were hunted by American militias after 
the Revolutionary War.
    In Vietnam, an examination of President Ford's declassified 
NSC transcripts reflect an administration that did not 
seriously turn its attention to the plight of the South 
Vietnamese who aided the U.S. until the final weeks of the war, 
by which point it was surely too late.
    Now, my colleague, Ambassador Johnstone, has humbly 
understated his service to our nation in the final days of the 
Vietnam War. He and Lionel Rosenblatt recognized that the South 
Vietnamese who had risked their lives in the service of America 
were about to be abandoned. They holed up in a hotel room, 
posing as French businessmen, and conducted an unofficial 
underground railroad to spirit out our embassy employees who 
would surely be primary targets upon our departure.
    For such efforts, they were rewarded with an arrest warrant 
issued by the embassy, as sure a sign there is that, in the 
absence of leadership, our nation's moral compass is easily 
shattered. Our refugee policy that emerged in those final hours 
reflected a Darwinian cruelty. Whoever was persistent and 
strong enough to break through the gates at our embassy could 
have a seat on one of the few choppers remaining.
    We eventually did the right thing, by admitting hundreds of 
thousands of Vietnamese refugees to our country, but not before 
too many were lost to assassination and reeducation camps and 
not before we suffered a horrendous blow to our nation's image.
    What ensued in those early morning hours on the rooftops of 
Saigon, as desperate Vietnamese clamored beneath departing 
helicopters, would be rebroadcast by Al-Jazeera throughout 
2005, when I worked for the USAID in Baghdad and Fallujah. My 
Iraqi colleagues were demoralized by the footage, and asked us 
if the same would happen to them when we left.
    Depressing as this history is, it is not inevitable. The 
U.S. is not evacuating, but withdrawing, a distinction which 
provides us with an opportunity to avoid the mistakes of the 
past. There are many encouraging precedents to build upon.
    After the bloodletting in Basra, for instance, the British 
responded by airlifting its surviving Iraqi staffers directly 
to a RAF base in Oxfordshire, England, whereupon they were 
offered asylum. Indeed, each of America's principal coalition 
partners--Britain, Poland, Denmark--has honored its moral 
obligation to endangered Iraqi employees through airlifts to 
military bases.
    We have employed the Guam Option, as we've discussed today, 
routinely in our own history. Secretary Schwartz himself was 
intimately involved in the '96 Operation Pacific Haven, which 
airlifted 7,000 Iraqis to Guam in a matter of weeks. We must 
ensure that he has the tools to do so again.
    In a war that has presented few silver bullet solutions, 
this comes close. We can save the lives of those who've helped 
us, while maintaining security as processing occurs on a remote 
base. We cannot make the mistake of thinking that the systems 
currently in place will work quickly enough for those Iraqis 
who are cut loose in the coming months.
    The implication for inaction extends well beyond Iraq. Each 
of us in this room has strong opinions about how the war in 
Afghanistan, now the longest war in our nation's history, 
should be prosecuted. Wherever you stand, however, there are no 
strategies that do not involve reliance upon Afghan civilians 
in many capacities similar to how we've employed Iraqis.
    If we allow the thousands of Iraqis who have risked their 
lives to help us to perish, or to spend the coming years in 
hiding, in peril, in flight, in waiting, we are fools to think 
that we can expect support from Afghans.
    But the urgency of this situation demands frankness. 
Nobody's ever won an election by admitting refugees to our 
country. The fulfillment of such moral and strategic 
obligations serves the nation, not any particular constituency. 
In doing so, we raise our status as a country that is still 
capable, even amidst our struggles, of honoring our principles 
by protecting our friends against those who wish to spill their 
blood.
    President Obama once summoned the words of Martin Luther 
King when talking about the need to end the war in Iraq and I 
quote, ``In this unfolding conundrum of life and history, there 
is such a thing as being too late.'' Let us hope that he and 
his administration embrace these words as they bring this war 
to a close and thank you for the opportunity to address you 
this afternoon.
    Mr. Cardin. Thank you for your testimony, Mr. Johnson. Mr. 
Newton.

MICHAEL A. NEWTON, PROFESSOR OF THE PRACTICE OF LAW, VANDERBILT 
                     UNIVERSITY LAW SCHOOL

    Mr. Newton. Thank you, Mr. Chair. It's a great a privilege 
to be here and I would offer to submit a written statement.
    Mr. Cardin. Your written statement is made part of the 
record.
    Mr. Newton. Thank you, sir. Sir, I'm a graduate of the U.S. 
Military Academy and I served in uniform for more than 21 years 
and I would add my voice to those that have already said, 
today, that our obligation and our responsibility to our Iraqi 
friends and allies is a moral and a strategic imperative.
    I believe that we have every obligation to protect them, to 
respect them, to help them and at our present rate, we're not 
meeting those obligations in a way that we're capable of doing. 
This hearing today represents, I think, a beacon of hope for 
those Iraqis whom we all know and we have worked with. And I 
respect the leadership and the vision to convene this hearing.
    I would also respectfully submit that the focus of this 
hearing ought not to be on our shortcomings, but on the way 
ahead as we begin a concrete glide path, I would strongly urge 
that specific planning and specific implementation of specific 
responsibilities to help specific Iraqis cannot be relegated to 
an inconvenient afterthought.
    It has to be a central focus and part of the planning, and 
today, from my observations and my experience, it is not. We 
can do better and we should do better and I believe we have a 
moral imperative to do better. In that context, if you remember 
any--one single thing that I have to say, it is this, that a 
successful process in strategy for assisting Iraqis, in my 
view, needs to be a robust interagency process that fully 
integrates all stakeholders.
    We've heard, today, of course, from the distinguished 
assistant secretary in PRM at State. He's been very busy. There 
are stakeholders in the Department of Defense. There are 
stakeholders in Homeland Security. I strongly believe that the 
failure to include a systematic planning may very well have 
strategic consequences.
    And to summarize, our government has to work together so 
that things don't fall apart. And again, at present, we are 
not. I do hope that this hearing leads to both an increased 
awareness, but also a unified and a swift congressional 
response. And I will conclude my testimony by offering four of 
what I see is four very specific, very concrete mechanisms, 
some of which require statutory assistance to move forward.
    As has been observed in the very recent past, we've seen a 
specific focus on targeted assassinations, targeted killings of 
our Iraqi friends and those who worked with us. And 
particularly, any American service member or woman who has 
served in Iraq has legendary stories. American lives have been 
saved in so many examples by these friends and allies.
    We owe it to them to assist them rather than simply turning 
our backs upon them. Within the last three days, it was in a 
reported account of a translator who was murdered by his own 
son. And the reported quote was, ``Everybody hated him because 
he worked for the Americans.''
    These targeted reprisals indicate that the concerns that 
have been expressed today are not just theoretical concerns. 
They're very real. They're very tangible. But I would also 
offer the hopeful caveat that the suffering that we foresee is 
foreseeable, but not inevitable. We can, in fact, mobilize 
resources from this great country to do better and to do more.
    As a quick aside, I will tell you--let me pause to admit 
that this also comes from the wellspring of personal 
experience--my book on the trial and execution of Saddam 
Hussein is called ``Enemy of the State.'' It is the definitive 
account of the trial of Saddam.
    In the dedication, in the forward page, as follows--it says 
and I quote, ``To Riyadh and to John and to all those who have 
suffered at the altar of freedom and human dignity.'' Neither 
Riyadh, an Iraqi, nor John, the American, who are named are 
fictitious individuals. They're real individuals, but they're 
emblematic of so many thousands of others who have suffered and 
sacrificed.
    Riyadh was the most distinguished, noble translator in the 
embassy working with the Iraqi judges preparing the trial. He 
was threatened. He was told, as so many other Iraqis were, 
don't wear your uniform clothes. Don't hide. Blend in. Because 
of his leadership and his perspective, he was one of the most 
respected Iraqis. He didn't follow that advice. He wanted to 
set the example for those who were watching him, so he wore his 
work clothes. He carried himself with pride and a great sense 
of distinguished presence. The Iraqis followed him; they looked 
up to him.
    On my second trip to Iraq, he pulled me aside--literally, 
grabbed me by the elbow, pulled me aside--he said, Newton, be 
very careful. It is more dangerous today than it was the last 
time you were here. And within 48 hours, he was murdered on his 
doorstep, literally, as he left to go to work. And as I say, he 
is emblematic of so many others. We could spend a great amount 
of time telling you concrete illustrations.
    So the focus has to be, what can we do and what should we? 
We know what we should do. The focus has to be, what can we do? 
One thing is clear and I want to reiterate it, that we need 
much, much greater integration of effort and mutual support 
between the Departments of State and Defense and Homeland 
Security.
    At present, there are delays and there are inefficiencies 
which no single agency can address, nor should address. And I 
firmly believe that with the coordinated efforts of our 
government, we can, in fact, make great strides in addressing 
this problem. And to reiterate, I do believe it's a moral and a 
strategic imperative that does, as has already been pointed 
out, have implications for our current counterinsurgency 
operations in Afghanistan and in other parts of the world.
    So Mr. Chair, let me conclude with four specific 
recommendations. Number one: As a first priority, the amendment 
offered by the distinguished co-chair, Mr. Hastings, needs to 
become the law of the land. That amendment would require the 
Department of Defense to compile a consolidated report--the 
database of information, if you will, which, in fact, is 
resident within the Department of Defense--of which individuals 
have, in fact, worked alongside us, which individuals have 
suffered, which individuals have sacrificed and therefore, 
which individuals within Iraq are the most in danger.
    Despite the laudable, the tremendous logistical planning, 
the compartmentalization of the refugee issue, at present, 
leaves us in a hauntingly similar position to where we were in 
1975. And I so appreciate Ambassador Johnstone's sentiment in 
that regard. This is a preventable crisis. As I said before, it 
is foreseeable but not inevitable. So step one, the Hastings 
amendment needs to become the law of the land.
    Step two: I do believe that we need to empower the 
Department of Defense to capitalize on its efficiencies. To 
that end, the Hastings report within DOD is a necessary first 
step. But I also believe that within the Department of Defense, 
there should be a consolidated focal point of expertise, to 
consolidate the expertise, to help cut through the interagency 
bureaucracy that, at present, prevents Iraqis from knowing 
where to go and who to turn to.
    Just one small example, the process of getting a chief-of-
mission letter: The urgency of that may very well be felt 
within DOD channels. And in my experience there are many people 
at the lower levels of DOD who know the sacrifices, who know 
the people who have sacrificed and who desperately want to help 
them because they're bonded by fire.
    They've ridden in the same vehicles. They've walked the 
same patrols. They've talked to the same people. They've been 
under fire by the same enemy. They desperately want to help. 
And at present, within DOD channels, there is no office; there 
is no focal point to help. Conversely, from outside DOD, there 
is no single focal point for other agencies to coordinate or to 
make synergy of efforts. And I believe that we can and should 
fix that.
    Also, secondly, a designated focal point within DOD would 
also give a focus point of expertise to be able to push 
expertise out to the combatant commanders and I think that's a 
really important need.
    Thirdly, the corollary to a focal point for administrative 
and logistical purposes is a designated funding stream. We were 
very successful in the surge. The surge was not just a surge of 
people; it was a surge of ideas. And one of the most critical 
tools on the ground, at the tactical level--as you well know, 
Mr. Chairman--was the commander's emergency response fund: a 
quick, focused mechanism at the tactical level for a local, 
tactical commander to focus on immediate needs that were a 
priority to the immediate local population.
    I believe that in this context, a local tactical commander 
in the military chain of command should have exactly the same 
type of legislative statutory authority. It may very well be 
nothing more complex than bulletproof windows in a car or hotel 
accommodations. But at present, there's no streamlined funding 
authority at the tactical level for commander's emergency 
response, to assist the translators that are under danger.
    Food, whatever the need, they're best equipped to do it--to 
meet that need--but at present, they have no ability to meet 
that need. As a corollary, I do believe that the focal point 
within DOD should have a designated funding stream to allow it 
to do its job, on the larger scale, for the same kinds of 
reasons and for the same kind of moral imperative.
    And lastly, I do believe that there needs to be a focused 
interagency ability to synergize the efforts of our government 
with the tremendous willingness and the tremendous capacity of 
our local civil societies. As has been pointed out in Operation 
Pacific Haven, that succeeded with a great deal of support from 
the local population. There are volunteers; there are 
university groups; the List Project work at the local level.
    There are churches; there are community organizations that 
will do heroic things to help these people once they're on the 
ground and once they're safe, but they can't do it without the 
assistance of the government to get them here, to get them to 
safety. As has been pointed out, this window of opportunity 
represents a fortuity--one of the rare fortuities, frankly--
where our strategic interest straight, directly aligns with our 
moral imperatives.
    We cannot let this opportunity slip away. And to reiterate, 
it's our moral duty to stand by those who have stood by our men 
and women in uniform. I deeply believe that. And I do believe 
that a focused and revitalized national effort to save our 
Iraqi allies will, in the long run, save American lives, both 
in Iraq and in Afghanistan and in other theaters.
    I thank you so much for taking the time from your busy 
schedules to attend and for your leadership and your vision in 
calling for this hearing. I'm honored to know so many wonderful 
Iraqis who have suffered so much to share their needs with you 
today and I welcome your questions.
    Mr. Cardin. Well, first let me thank all three of our 
witnesses. I think the advice that you have given us is very, 
very valuable. There's clearly a willingness in this country to 
step up to our responsibility as it relates to those who helped 
us in Iraq. There's certainly a willingness in this country to 
deal with the refugee issue internationally. America's always 
been in the forefront.
    But there doesn't seem to be the type of planning that 
Ambassador Johnstone said we should have learned from Vietnam, 
in trying to know the numbers, know the consequences, plan for 
this in an orderly way. I'm interested whether any of you have 
reliable numbers that you think represent Iraqis who helped 
America that are at risk, and who have a desire to seek refuge 
here in the United States. Does anyone have those? Now, I know 
you have lists, Mr. Johnson.
    Mr. Johnson. I think this underscores the urgency of 
getting Rep. Hastings's amendment through because that's one of 
the first things that it calls upon the U.S. government to get 
at. The estimates that I've seen range between 40,000 and 
120,000 Iraqis who have helped us. I personally have received 
appeals from several thousand.
    The other relevant fact here is that when the British 
offered two things to the remaining Iraqi staffers: Either 
we'll put you on an airplane next week to come to the U.K. and 
we'll give you asylum, or we'll give you something on the order 
of, like, 10 or $15,000. There was a buyout. And to my 
understanding, only roughly 10 percent of the Iraqis that 
worked for the Brits availed themselves of the airlift.
    It's hard for me to say whether or not the same percentages 
would hold with those who have helped us, but I know that out 
of the gates we have authorization to bring 25,000 Iraqis over 
who have helped us. And we're nowhere close to exhausting that 
limit. So part of me thinks we ought to just, at least, use 
those up before we start exploring beyond it.
    Mr. Cardin. We understand the Hastings Amendment would give 
us at least some objective information from the Department of 
Defense to figure out where we go from there. Does either one 
of the other two have any numbers that you think differ from 
that, or is that within the ballpark of what we should be 
planning?
    Mr. Johnstone. I think there isn't really a solid ballpark 
to be had. And I think those are as good numbers as we're going 
to get for right now. I think once the Hastings Amendment 
passes, we'll do much better. But I want to underline the fact 
that U.S. involvement in Iraq has not just touched the lives of 
the people who have worked with us. I think we have a special 
responsibility to them; there's no question in my mind on that. 
It's an issue very close to my heart.
    But we have destroyed the lives, in the course of all the 
military activity that was precipitated by our actions in Iraq, 
of about 2 million people. And it's 1.5 million people whose 
lives have been destroyed within Iraq because they've been 
forced to move from their neighborhoods with the outbreak of 
sectarian violence, et cetera, and another half million or more 
outside of Iraq.
    And we need, in our moral obligations, I think, to give 
priority to those who have worked with us, but not to neglect 
also the people who have been displaced as a result of the 
military actions in Iraq during the course of the war. That's 
part of our moral obligation. I just want to underline that as 
we conclude this particular session, that we not neglect the 
people that are suffering the very, very most in Iraq.
    Mr. Cardin. I'm going to get to the refugee issue, but let 
me stick, if I might, to those who may well wish to come to the 
United States. One of the frustrating parts is that there are 
these so-called background checks that need to be done on 
people who come to America.
    And Ambassador Johnstone, you've been involved in this. 
It's my understanding that there's already been security 
background done on people who have had a close relationship 
with the United States in Iraq. So we already know something 
about the people who helped us. Am I right about that?
    Mr. Johnstone. That certainly is right. The U.S. government 
does not employee employees, or even the organizations that 
work with the U.S. government without checking into their 
backgrounds.
    Mr. Cardin. So is that information routinely made available 
when an individual wishes to come to the United States under 
these programs? Or do they do duplicate and do new checks that, 
perhaps, could have been expedited by just using the material 
that's already available, the files already available?
    Mr. Johnstone. I can speak to the issue of refugees. And 
let's not confuse the fact that most of the people who are 
coming to the United States, who had been associated with the 
United States, do not come under the exceptional programs that 
have been developed.
    They come under refugee programs. That information is being 
shared with the UNHCR, with IOM, with the people who are doing 
the basic background checks on people who are designated to 
potentially come to the United States and for whom a decision 
needs to be made.
    So that information is being done. And I think that that 
process has become far more expeditious than it has been in the 
past. In fact, I would say that of all of the programs that 
exist in the world for refugees, none move faster on the 
refugee track than the refugees currently fleeing Iraq, or even 
internally displaced people within Iraq.
    Is it good enough? Of course it's not good enough. It could 
be better. But it is moving well. What is not moving nearly as 
fast--and in fact, I think, Secretary Schwartz pointed out the 
fact that it is a much slower process to avail yourself of the 
programs that were designed specifically to help there.
    Mr. Cardin. Why is it taking so long under the special 
programs?
    Mr. Johnstone. Well, I'm not the right guy to ask because I 
haven't had to handle the special program.
    Mr. Cardin. My point is that it looks like it's restricted 
to those who have had direct involvement to the United States. 
We would have had a background check on those individuals.
    Mr. Johnstone. I would have thought so as well and I don't 
understand it. It seems to me that that should be something 
that could be expedited very quickly and I suspect that, when 
the day comes, will be expedited, but will it be in time? 
Because I think we do have a way of breaking through 
bureaucratic hurdles when it reaches crisis levels, but that's 
often too late to be able to solve the problem for everyone.
    Mr. Newton. Mr. Chair, let me add, I think your insight is 
exactly right, which is one of the reasons why it's so 
disturbing to me that we have a gap between DOD assets and the 
assets that are processing special immigrant visas. I hear from 
service members all the time that are frustrated at the delays 
and the inefficiencies.
    One of the things that we did, as has been referenced, in 
Operation Safe Haven was, we took about a two-year process and 
we reduced it, for those Kurdish refugees, to between 90 and 
120 days. And the task-force commander, at the conclusion of 
that operation, said, I hope that the lessons that we've done 
today serve as a model for future operations. And we've lost 
that.
    And what made that operation work successfully was the 
integration between State resources and DOD, that 
communication--exactly what you're talking about. For example, 
a refugee who did have all those background checks and knows 
that it's resident in such-and-such commander's files in such 
and-such unit--he has no idea, no way to get to that. So he has 
to start all over again. And it does create inefficiencies.
    Mr. Cardin. Well, that's something we're going to try to 
overcome because I mean, it makes no sense that there's delays. 
Let me transition into Iraq's government's help, here. And let 
me start first with those who helped the United States. It 
seems to me that if your 10-percent number is accurate--I don't 
know whether it would be 10 percent or 15 percent or 20 
percent--still, the majority that have assisted the United 
States, for whatever reasons, will want to remain within Iraq.
    Mr. Johnson. It's really difficult to tell. I can only 
speak for those who are desperately trying to get out, but what 
I do know is that the lethal stigma that these Iraqis have 
incurred by working with us is harbored within the government 
of Iraq as well. I know of Iraqis who have left their work with 
the U.S. government--let's say in the education or health 
sectors--and they've gone to that relevant ministry and tried 
to apply for work. And in doing so, they've exposed that they 
worked for the U.S. and they've received threats as a result.
    And keep in mind that a lot of these ministries, for much 
of the last few years, have been run as, you know, fiefdoms for 
the different sects within Iraq. I don't see the government of 
Iraq as a great ally in terms of protecting the Iraqis who have 
helped us. And I think they have an incredible obligation to 
work with us on facilitating returns and protecting the other 
IDPs, but I would never bank on the Iraqi government to protect 
those who have been serving our Marines and diplomats.
    Mr. Cardin. So what should the United States be doing in 
order to change that? If, as a practical matter, most of the 
Iraqis who assisted us are going to remain in Iraq, what should 
we be doing to make sure that those who helped us, who want to 
stay in Iraq, have the best chance of some degree of protection 
within the Iraqi system? What should the U.S. be doing?
    Mr. Johnson. I think the cold reality is that with every 
soldier and Marine that comes home, every day our ability to 
shape the situation on the ground in Iraq decreases. You'll 
remember that one of the central dimensions of the surge was 
the reliance upon the Awakening. We funded roughly 100,000, 
most of them former Sunni insurgents, to basically flip and 
fight al-Qaida. And they're seen as one of the central reasons 
for the success in Iraq.
    There is now a systematic campaign underway to hunt and 
kill those Sahwa, or Awakening, members.
    Most of them are fleeing across the state borders. They're 
going to Sweden and other countries and they're asking us for 
help. We're not taking up the Awakening cause at this point.
    But if we look just at their plight, which are potentially 
comparable numbers, We've not been able to provide protection. 
And we've certainly made a lot of requests to the government of 
Iraq to ensure that these Awakening members are integrated into 
Iraqi society, but it hasn't happened.
    Mr. Cardin. Well, I would just suggest that there will be a 
continuing U.S. presence in Iraq for many years to come. I 
don't know of anyone who's suggesting that we want to isolate 
Iraq, from the point of view of our involvement. We're 
absolutely removing our combat troops, but I expect there'll be 
significant U.S. involvement.
    I know that our government has raised frequently the issue 
of the internally displaced people and their safe return to 
their communities. Quite frankly, I think, without the 
international community raising this issue as frequently as it 
has been raised, the progress that has been made to date would 
not have been as much.
    Not that we don't have a long way yet to go--we still have 
a long way to go--but it hasn't been a top priority for the 
Iraqi government. I would think it should be, but it has not 
been a top priority for the Iraqi government. So I guess my 
point is, how do we get the Iraqis to pay more attention to the 
crisis they have in their own country, with so many people 
being displaced by the war who have not been able to return to 
their homes?
    Mr. Johnstone. Well, I think we're talking here about all 
of the facets of diplomatic persuasion that you can bring to 
bear. That is to say, from jawboning the issue all the way 
through to withholding funding for programs that the Iraqis 
want if they do not live up to their obligations.
    And it isn't hopeless, in the sense of jawboning. And I 
think we have seen some progress latelybecause quite frankly, 
it's inherently in the interest of the government of Iraq to resolve 
both the internally displaced people issue, as well as the refugee 
issue, in a favorable way to the government of Iraq.
    I think to close their eyes to the presence of Iraqis 
outside of Iraq--which is essentially what they've done--is 
very shortsighted. They need to reintegrate these people into 
Iraq. They represent a wealth of capabilities and they're 
needed by Iraqi society. And we just have to keep hammering 
these points home and hope that we will end up with a 
leadership in Iraq, ultimately, that is responsive to these 
requirements.
    Mr. Cardin. When I was in Syria about a year ago, there 
were a significant number of Iraqi refugees who were traveling 
back and forth between Syria and Iraq. Is that continuing; does 
anyone know? Are there refugees who do return home, but cross 
back over the border for safety, but need to do it for economic 
reasons? Is that still taking place?
    Mr. Johnstone. Yes.
    Mr. Newton. I've heard anecdotal evidence of that, sir.
    Mr. Johnstone. There's no question about it and it's 
particularly prevalent between Iraq and Syria.
    Mr. Cardin. And then my last question is on the 
international community. It seems to me that much more could be 
done by the international community. We've had the 
representatives from the refugee services from the 
international organizations and we've talked to them.
    And they're trying to do what they can, but the number of 
countries that have really stepped up here have been rather 
small, as far as their financial contributions, here--outside 
of the region and outside of the United States. Am I correct in 
my observations, or is this an issue which really needs to be 
resolved by the United States and Iraq, principally?
    Mr. Johnstone. You're certainly correct in your 
observations, but unfortunately, I suspect, in the final 
analysis we're not going to be as successful as we would want 
to be or as we should be with respect to getting other 
countries to step up to their obligations. We have allies that 
were allies of ours going into Iraq in the first place who have 
not stepped up to their obligations.
    And I have spoken with them all. And sometimes the argument 
is, well, we did our part and now we are withdrawing and we 
don't want anything more to do with this issue--very blind to 
the humanitarian responsibilities. Other cases, where it hasn't 
been an ally of ours, they'll say this was a U.S. war and the 
U.S. should pick up the costs associated with it.
    I hear every imaginable argument from others, but I must 
say, it is extremely disappointing to see how little support 
the rest of the international community has given to the Iraqi 
refugee and displaced person issue.
    Mr. Newton. I agree, Mr. Chairman. Let me also add that 
sometimes we inadvertently mischaracterize the need in saying, 
these are refugees. Therefore, they have nothing. Their human 
capital is going to be an ultimate net drain on your society. 
In fact, in my experience, in my observations from working with 
these people, these really are many of the best and brightest.
    They're patriotic; they're hardworking; they're courageous. 
They have moral principles. They want to plug in and take care 
of their families. They're a net positive for society and I 
think it's in part how we frame the debate. They have much, 
much to offer both to other societies and, in fact, to the 
fabric of United States culture.
    Mr. Cardin. Oh, and I agree with you completely. And you're 
absolutely correct and we should underscore that point. Because 
where it is looked at as a cost factor, it could be turned into 
an asset factor. Having met with the governments of Jordan and 
Syria on this issue, it's a cost issue for their budgets.
    And they don't see this as a permanent population in their 
country and therefore, they look at it as a responsibility 
that's been thrown upon them without the participation of the 
international community and without any game plan on the long-
term impacts. But you're correct. From the point of view where 
you have permanent placement in other countries, or the 
assistance to get people back to their homes, it's going to be 
an economic plus. There's no question about that.
    Let me, again, thank our three witnesses. This is a 
continuing interest to the commission. I've been told that the 
amendment offered by Mr. Hastings is working its way through 
the Congress and that there have been, at least, indicators of 
support from the committee chairs of the committees of 
jurisdiction. So we will obviously be following that bill very 
carefully.
    I couldn't agree more with our witnesses: The first thing 
we need to do is get the numbers and have a reliable number, so 
we all can work on that. Then it's a little bit easier to get 
areas of responsibility, or focal points or funding flows that 
you have suggested all need to be part of that. But we need to 
know the type of numbers that we're talking about and whether 
the programs and resources are currently adequate in order to 
deal with that.
    And we thank you all for your leadership on this area. And 
with that, the Helsinki Commission will stand adjourned. Thank 
you all very much.
    [Whereupon, at 4:00 p.m., the hearing was adjourned.]
                                     


                  This is an official publication of the
                        Commission on Security and
                          Cooperation in Europe.

           <SUP><ls-thn-eq><</SUP> <SUP><</SUP> <SUP>< </SUP>

                 This publication is intended to document
                 developments and trends in participating
                 States of the Organization for Security
                    and Cooperation in Europe (OSCE).

           <SUP><ls-thn-eq><</SUP> <SUP><</SUP> <SUP>< </SUP>

                All Commission publications may be freely
                reproduced, in any form, with appropriate
                    credit. The Commission encourages
                    the widest possible dissemination
                           of its publications.

           <SUP><ls-thn-eq><</SUP> <SUP><</SUP> <SUP><</SUP>

                  http://www.csce.gov     @HelsinkiComm

                    The Commission's Web site provides
                   access to the latest press releases
                   and reports, as well as hearings and
               briefings. Using the Commission's electronic
                  subscription service, readers are able
                   to receive press releases, articles,
                and other materials by topic or countries
                         of particular interest.

                         Please subscribe today.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
